                                       Ng to




        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Management Alert
The Status of Energy Efficiency and
Conservation Block Grant
Recipients' Obligations




OAS-RA-11-16                   September 2011
                                  Department of Energy
                                     Washington, DC 20585

                                        September 1, 2011

MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Management Alert on "The Status of Energy
                          Efficiency and Conservation Block Grant Recipients' Obligations"

IMMEDIATE CONCERN

Because of the unprecedented level of funding provided under the American Recovery and
Reinvestment Act of 2009 (Recovery Act) and the risks associated with spending such sums in a
compressed period of time, the Office of Inspector General initiated a series of audits of the
activities of the recipients of Department of Energy Energy Efficiency and Conservation Block
Grants (EECBG). These audits disclosed that significant amounts of grant funds remained
unobligated by recipients even though the Department's 18-month obligation deadline had been
exceeded. Consequently, we expanded our work to determine more broadly the extent to which
EECBG formula grant funds had not been obligated by recipients.

Confirming our initial concerns, the current examination disclosed that as much as $879 million,
or 33 percent of the $2.7 billion allocated for formula-based EECBG grants, had not been
obligated by the recipients. Our testing also revealed a number of apparent inaccuracies in data
that Department officials used to monitor grantee obligations and spending. These issues
undermine one of the basic premises of the Recovery Act, that is, to promptly stimulate the
economy and create jobs. Further, given established deadlines to deploy these Recovery Act
resources and the reality of the "ticking clock," pressure to expedite both obligations and
expenditures significantly increases the risk that program safeguards, important to ensuring that
taxpayer interests are protected, may be circumvented. Due to the urgency of addressing these
matters, we are issuing this report as a Management Alert.

BACKGROUND

Under the Recovery Act, the EECBG Program received $3.2 billion to improve energy
efficiency and reduce energy use and fossil fuel emissions. The Department's Office of Energy
Efficiency and Renewable Energy allocated about $2.7 billion of the funds using a population-
driven formula to over 2,000 entities including: states and territories; cities and counties; and,
Indian tribes. The remainder, nearly $500 million, was directed to competitive grants and
technical assistance activities. State recipients were required to allocate 60 percent of their
grants to certain small localities.

EECBG agreements have a maximum performance period of 36 months and, in support of the
Recovery Act's goal of immediate investment in the economy, the Department required grant
recipients to obligate all funds within 18 months of the grant award date. Recipients are
authorized to obligate funds when orders are placed, contracts and sub-grants are awarded and
goods and services are received that will require payment by the recipient in the future. In our
report "The Department of Energy's Implementation of the Energy Efficiency and Conservation
Block Grant Program under the Recovery and Reinvestment Act: A Status Report" (OAS-RA-
10-16, August 2010), we pointed out that 1 year after passage of the Recovery Act recipients had
spent only 8.4 percent of the $3.2 billion authorized for the EECBG Program. In response to our
report, Department officials indicated that the amount of funds obligated by recipients was a
leading indicator for measuring the Program's success in meeting Recovery Act goals. Officials
noted that a recipient's obligation of funds was a key step in starting projects and putting the
money to work for the economy.

OBSERVATIONS AND CONCLUSIONS

Because of the delays in recipient spending, we found that use of the EECBG funds to stimulate
the economy and create jobs, the primary purposes of the Recovery Act, had not been
maximized, and the funds had not been effectively used to promote energy efficiency and
conservation. We also identified troubling anomalies with grant obligation information reported
by the recipients to the Department. These included obvious and unexplained errors such as the
total of obligations and expenditures exceeding the amount of the grant award. In seeking to
better understand these data anomalies, we found that Department officials had performed some
verification of the reliability of obligation and expenditure data reported by grant recipients;
however, the steps taken had not ensured the accuracy of the data.

Our analysis of financial data submitted by EECBG formula grant recipients to the Department,
as of March 31, 2011, revealed that $879 million of the formula-based funding was unobligated
by recipients. Of greatest concern, recipients had not met the Department's 18-month deadline to
obligate $511 million of this amount. Since our prior report, recipients had made significant
progress in expending their EECBG funds, having spent $1.3 billion, or nearly one-half of the
$2.7 billion in formula grants by July 18, 2011. Despite this progress, the fact that nearly a third
of the grant funds remain unobligated calls into question the ability of recipients to effectively
use all of the grant funds within the 36-month performance period.

Department officials indicated they were aware of these issues and had made numerous outreach
efforts with recipients to provide assistance in removing barriers to obligating and spending
funds. Additionally, officials are currently evaluating the likelihood that recipients will be able
to expend funds before the end of their grant performance periods and identifying options to
address those recipients who may fail to do so. However, as time continues to pass, the
Department needs to finalize a plan of action to address unobligated funding. The plan should
include actions to either mandate that current unobligated funds be used to stimulate the
economy consistent with the goals of the Recovery Act or ensure the Department takes
appropriate action to address recipients' noncompliance with the terms and conditions of their
grants, including the 18-month obligation requirement. Ultimately, if recipients fail to utilize
their Recovery Act EECBG funding, the Department should terminate the grants and return the
funds to the U.S. Department of Treasury (Treasury).

Monitoring/Controlling Recipient Unobligated Balances

Department officials acknowledged that recipients had not obligated over half a billion dollars in
EECBG funds within the 18-month deadline, and told us that although recipients had not met this
                                                 2
deadline, they believed a majority of them were making "good faith efforts" to complete grant
activities within the 36-month performance period of the grants. Nonetheless, officials stated
that, based on their preliminary analysis, recipients may not expend an estimated $371 million of
Program funds by the end of the grants' performance periods. Officials indicated they are
currently in the process of refining that estimate and expect to determine a more precise figure.

Department officials explained that there are many valid reasons why recipients have been
unable to obligate funds within 18 months. For example, a recipient that performs a building
retrofit might need to conduct an energy audit before obligating funds for the actual building
retrofit. Officials indicated that recipients could request extensions to the 18-month obligation
deadline; however, only 198 of the 1,358 recipients that failed to meet the deadline had requested
and received formal extensions from the Department.

Instead of terminating awards and deobligating unexpended funds, Department officials told us
they preferred to assist recipients in successfully completing projects and have an ongoing effort
in that regard known as "Clear Path." Beginning in September 2010, the Clear Path effort was
initiated to provide technical assistance to those recipients that had been slow to obligate and
expend their grant funds. Under Clear Path, officials reported they have completed thousands of
phone calls, emails, letters and onsite visits to recipients.

While the effort to encourage and assist recipients to complete projects is a positive step, we
remain concerned with the slow pace of obligations in the face of the ever shrinking grant
performance period. The performance period end dates for a majority of formula grants are in
the last half of calendar year 2012. As time passes, there is a greater risk that recipients will be
unable to effectively use the funds because of the time required to select and design projects,
purchase goods and services in accordance with Federal and state regulations, and comply with
legal provisions such as those contained in the National Environmental Policy Act and the
National Historic Preservation Act. Our concern is heightened because the historic experience of
oversight agencies suggests that pressures to obligate and spend expiring funds significantly
increase the risk that important safeguards may be circumvented and that fraud, waste and/or
abuse may occur in the rush to meet deadlines.

The Department is in the preliminary stage of identifying options to assist those recipients who
may not expend their funds within the grant performance period. While the Department prefers
to work with recipients to complete their grants, Federal regulations and the terms and conditions
of the grants provide remedies for nonperformance, including:

       Temporarily withholding payments from grantees;

       Wholly or partly suspending or terminating awards; and/or,

       Granting extensions, where appropriate.

In our opinion, because of the limited time remaining, the Department needs to finalize an action
plan addressing the disposition of unobligated funds.


                                                 3
Reliability of Recipient Information
The data we examined suggests additional actions may be needed by the Department to ensure
effective grant fund management. In particular, we identified anomalies with the reported grant
recipient data that need to be resolved to ensure program results are recorded accurately and
additional enforcement action is not warranted. The anomalies we observed with recipient
reported obligations, in our opinion, have the potential to undermine confidence in the
Department's management of the EECBG Program on an on-going basis.

To perform our analysis, we used data from the Department's Performance and Accountability
for Grants in Energy (PAGE) system, which is an official record of EECBG formula-based grant
data. The accuracy of the unobligated balance information contained in the PAGE system
depends on the completeness and accuracy of the underlying data reported by recipients. While
we have not performed a comprehensive assessment of the reliability of the data in the PAGE
system, we have identified questionable data which indicates the PAGE system is neither
complete nor accurate. We could not determine the overall effect that data quality issues would
have on the balance of unobligated amounts reported by the PAGE system. However, material
inaccuracies in such data detract from its usefulness as a management tool and could, if relied on,
lead Department officials to erroneous conclusions regarding recipient activities or progress in
obligating and expending grant funds. Specifically, we observed anomalies with:

       Over-Obligated Balances: According to the PAGE system, 36 grants had obligations
       and expenditures exceeding the grant award amounting, in aggregate, to $9.4 million.
       This information, if accurate, would indicate that the recipients had committed and/or
       spent more than they had been authorized. We noted that in seven cases, Department
       officials had approved the reports submitted by the recipients even though the reports
       included the over-obligated balances. After we brought this issue to their attention,
       Department officials began to research the causes of these anomalies. In one example, a
       $2.5 million over-obligated balance was determined to be a reporting error; the recipient
       subsequently resubmitted its report showing an unobligated balance of $1.3 million. We
       confirmed that other negative balances were also subsequently corrected and approved.

       Obligations of 60 Percent Pass-Through: Available PAGE system data was not
       consistent with statements made to us by Department officials who told us that all state
       energy offices had satisfied the EECBG Program requirement to obligate a percentage of
       their awards to local governments. According to PAGE system data, not all the state
       energy offices had obligated at least 60 percent of their awards to local governments as
       required. For instance, a state energy office received a $30.4 million formula-based
       award. For the quarter ending March 31, 2011, the state reported no obligations and only
       $2.2 million in expenditures (7 percent of the total award); data which suggests the state
       had either not passed through its required 60 percent or had not properly reported the
       obligations in the PAGE system. Department officials informed us that they performed
       further analysis of this issue and discovered that nine states had incorrectly reported
       obligations in the PAGE system.

       Obligations of Administrative Funds: PAGE system data indicated that not all
       recipients reported obligations for funds committed to administrative functions as
                                                4
       required by Department guidance. Department guidance states that funds to be expended
       internally by a sub-recipient (i.e., not expended to reimburse a vendor nor award a sub-
       recipient) should be considered obligated when they have been committed to the internal
       department that will expend the funds. For example, at the beginning of the grant period,
       a recipient identified $771,000 to be used for administrative costs that should have been
       reported as fully obligated. However, as of March 31, 2011, the recipient had not
       reported $381,000 of the $771,000 as obligated for administrative functions.

While acknowledging the data errors we identified, Department officials expressed their belief
that the errors represented a small percentage of the overall data in the PAGE system. They also
stated that with limited resources, they would not be able to ensure accuracy of all PAGE system
data. They added that recent efforts have been focused on ensuring the accuracy of reported
performance measurement data, rather than obligations data, due to a recent U.S. Government
Accountability Office report that highlighted issues with the Program's performance
management data.

Department officials told us they rely on project officers to verify the accuracy of recipient
reported information; however, problems we identified suggest this internal control may not be
effective or working as intended. They advised us that project officers also maintain informal,
offline tracking worksheets for each grantee that include obligations data; however, they
acknowledged these worksheets are not timely reconciled with the PAGE system obligations
data. Department officials have indicated they are working on solutions to address the data
reliability issues we identified, including the implementation of automated controls to prevent
such errors.

Without reliable obligation data, the Department is unable to ensure it has a complete
understanding of the status of grants and is, therefore, unable to determine whether additional
actions are needed to assist awardees or whether it would be more appropriate to deobligate
funds, allocate them to better performing projects, or, if appropriate based on grant terms and
conditions, return them to the Treasury.

RECOMMENDATIONS

The current state of the EECBG Program obligations raises concern regarding whether the
Program will meet its intended goals and uncertainty regarding whether recipients are on track to
do so by the end of the terms of their grants. Therefore, we recommend the Acting Assistant
Secretary, Energy Efficiency and Renewable Energy:

    1. Verify the reliability of obligations data reported by EECBG grant recipients, including
       assurance that:

             a. Over-obligated balances have been identified and corrected;

             b. State energy offices have reported obligations on funds passed through to local
                government entities; and,

             c. Recipients have obligated funds associated with administrative costs.
                                              5
    2. Identify recipients who have not satisfied their 18-month obligation commitment under
       the terms of the grant awards, and take action to either:

             a. Encourage the recipient to submit an extension for approval; or,

             b. Use the remedies identified in the Department regulation.

    3. Complete the analysis to identify those recipients who are unlikely to expend funds
       within the grant period and consider alternatives for managing EECBG Recovery Act
       funds, including actions to:

             a. Assist recipients in completing projects within the grant period;

             b. Establish criteria for grant performance period extensions and communicate the
                criteria and the plan to implement the criteria to grant recipients;

             c. Encourage recipients to reprogram funds to other allowable energy efficiency
                and conservation activities that could be more timely completed; or,

             d. Terminate awards and remit funds to the Treasury.

MANAGEMENT AND AUDITOR COMMENTS

Management concurred with our recommendations and stated that it was executing plans to
address each of the issues identified. Management pointed out that it has focused aggressively
on encouraging grant recipient spending and obligation of funds. Additionally, management
noted that its outreach activities have led to dramatic increases in recipient spending.
Specifically, management stated as of August 10, 2011, EECBG recipients had spent $1.372
billion, or 48 percent of the total EECBG allocation. Management also stated that, as of June 30,
2011, EECBG recipients reported obligating $1.98 billion, or 70 percent of the total EECBG
allocation.

Management also noted that there is no statutory requirement for recipients to obligate funds
within 18 months or for the project period to be limited to 36 months. According to
management, the Department chose these milestones to help maximize the economic and job-
creation impact of EECBG. Management noted that, under the Recovery Act, recipients have
until September 30, 2015, to expend funds.

Recognizing the progress made to date and the economic and job-creation stimulus purpose of
the milestones it established in the EECBG grant agreements, management committed to
complete outreach activities to recipients, institute corrective action plans where needed, finalize
and communicate plans for recipients unlikely to spend all funds by the end of the grant
performance period, and identify and correct data quality issues.

Management's comments, attached in their entirety, were responsive to our recommendations.
Management waived an exit conference.

                                                 6
cc:   Deputy Secretary
      Associate Deputy Secretary
      Deputy Assistant Secretary for Energy Efficiency
      Acting Chief Financial Officer
      Chief of Staff

Attachment




                                               7
    Attachment




8
    Attachment (continued)




9
                                                                 IG Report No. OAS-RA-11-16


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:


              U.S. Department of Energy Office of Inspector General Home Page
                                       http://energy.gov/ig
  Your comments would be appreciated and can be provided on the Customer Response Form.
